                                                U.S. DEPARTMENT OF
                               HOUSING AND URBAN DEVELOPMENT
                                        OFFICE OF INSPECTOR GENERAL




                                            February 24, 2014

                                                                                             MEMORANDUM NO:
                                                                                             2014-CF-1802



Memorandum
TO:            Dane M. Narode
               Associate General Counsel, Office of Program Enforcement, CACC

               //signed//
FROM:          Kimberly Randall
               Director, Joint Civil Fraud Division, GAW

SUBJECT:       Final Action
               Tracie Hoker
               Real Estate Agent Violated U.S. Department of Housing and Urban Development
                  Real Estate-Owned Program Requirements


                                           INTRODUCTION

The Office of Inspector General (OIG) investigated allegations that Tracie Hoker, a real estate
agent, violated U.S. Department of Housing and Urban Development (HUD) real estate-owned
owner occupancy program requirements. The Cincinnati HUD office referred the complaint to
HUD OIG.

                                            BACKGROUND

When a HUD home becomes available for sale, the principal method of sale is a competitive
sales procedure. The property is publicly advertised for 10 days for sealed bids, with a
possibility for an extended listing period. It is usually listed on the Multiple Listing Service and
on Internet listing sites maintained by management companies under contract to HUD. Its list
price is determined by an independent appraisal. Any real estate broker who is properly
registered with HUD may submit a contract for purchase. In accordance with HUD policy,
priority is given to owner-occupant purchasers during the initial 10 days of the list period. If the
property remains unsold at the conclusion of the 10-day period, there is a review of all bids,
including investors, for the highest acceptable bid.


                                                    Joint Civil Fraud Division
                                   400 State Avenue, Suite 501, Kansas City, KS 66101-2406
                               Visit the Office of Inspector General Web site at www.hudoig.gov.
The owner-occupant bidder certifies on form HUD-9548, Sales Contract, that the purchased
property will be owner occupied as the primary residence. The form is signed by the bidder, the
real estate agent, and a HUD official. The purchaser also certifies on form HUD-9548-D,
Addendum to the Sales Contract, that he or she has not purchased a HUD-owned property within
the past 24 months and will occupy the property as his or her primary residence for at least 12
months. The real estate broker certifies on form HUD-9548-D that he or she has not knowingly
submitted the HUD-9548, Sales Contract, for the property on behalf of an investor purchaser.
The broker further certifies that he or she has discussed the penalties for false certification with
the purchaser(s).

                               RESULTS OF INVESTIGATION

Our investigation revealed that a bidder, using Ms. Tracie Hoker as his real estate agent, made a
false statement in 2012 to purchase a HUD-owned single-family home in Dayton, OH, by
submitting a bid as an owner-occupant when he did not intend to reside in the home as his
primary residence. The bidder recently settled with HUD by admitting that he made a false
statement. The investigation also revealed that Ms. Hoker caused the submission of a second
false statement by inducing the real estate broker to certify that he was submitting the bid on
behalf of an owner-occupant and not an investor. Tracie Hoker knew at the time of submission
of the sales contract that the bidder did not intend to reside in the property as his principal
residence.
On July 24, 2013, we issued a referral to HUD’s Office of General Counsel, recommending that
HUD pursue an action under the Program Fraud Civil Remedies Act, 31 U.S.C. (United States
Code) 3801-3812. To resolve the matter, HUD accepted a settlement agreement from Ms. Hoker
on November 15, 2013, in which Ms. Hoker admitted that she knew that the bidder did not
intend to occupy the property. She paid $5,000 to HUD to resolve the matter.
                                     RECOMMENDATION
We recommend that HUD’s Office of General Counsel, Office of Program Enforcement,
1A.    Agree to allow HUD OIG to post $5,000 to HUD’s Audit Resolution and Corrective
       Actions Tracking System.




                                                 2
